                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              JOB CORPS OVERSIGHT OF CENTER 

                                              PERFORMANCE NEEDS IMPROVEMENT 





                                                                Date Issued:   September 28, 2012
                                                             Report Number:      26-12-006-03-370
U.S. Department of Labor                                  September 2012
Office of Inspector General
Office of Audit
                                                          JOB CORPS OVERSIGHT OF CENTER
                                                          PERFORMANCE NEEDS IMPROVEMENT

BRIEFLY…                                                  WHAT OIG FOUND
Highlights of Report Number 26-12-006-03-370, issued      Job Corps centers did not consistently meet Job Corps’
to the Assistant Secretary for Employment and Training.   established Career Technical Training (CTT) program
                                                          completion and High School Development/General
WHY READ THE REPORT                                       Educational Development Certificate (HSD/GED)
The Department of Labor’s (DOL) Employment and            attainment goals.
Training Administration (ETA) oversees the Office of
Job Corps (Job Corps), which administers and              Job Corps did not issue Performance Improvement
manages the Job Corps program. Job Corps' mission is      Plans (PIP) to centers as required by the Workforce
to attract eligible young people, teach them the skills   Investment Act (WIA) and Job Corps policy for CTT
they need to become employable and independent, and       programs not meeting performance goals. Additionally,
place them in meaningful jobs or further education.       the CTT evaluation process Job Corps used to initiate
                                                          PIPs did not effectively identify underperforming CTT
Job Corps used a complex performance management           programs, and changes made to the evaluation process
system to assess program effectiveness across multiple    for PY 2010 further reduced the visibility of poor
components of services and programs offered to Job        performance. Job Corps also did not use Regional
Corps students at 125 Job Corps centers nation-wide       Office Center Assessments (ROCA) effectively to
and provide feedback to its centers on performance,       improve CTT program performance and did not
while encouraging continuous program improvement.         consistently formalize, document, and track other
                                                          oversight and monitoring methods.
WHY OIG CONDUCTED THE AUDIT
We conducted the audit to address the following           We estimate $37 million in funds can be put to better
question:                                                 use if improvements to Job Corps oversight resulted in
                                                          the underperforming programs meeting performance
       To what extent has the Office of Job Corps         goals and up to $118 million if all the students enrolled
       ensured its centers managed their academic and     in these underperforming programs graduated.
       career technical training programs to meet
       performance goals and maximize student             These conditions resulted from Job Corps’ lack of
       achievements?                                      sufficient emphasis on ensuring it used PIPs, ROCAs,
                                                          and other monitoring methods for CTT and academic
Our scope covered Job Corps performance data for          programs effectively. Specifically, Job Corps’ national
program years (PY) 2008 through 2010 (July 1, 2008,       and regional offices did not have mechanisms in place
through June 30, 2011). We also reviewed performance      to ensure they conducted adequate oversight and that
data for the 3-year period and analyzed corrective        the monitoring methods used resulted in improved
actions taken by Job Corps headquarters and regional      performance. During our audit, Job Corps initiated
offices from PY 2008 to the present.                      corrective action to address some of the oversight
                                                          weaknesses we identified.
READ THE FULL REPORT
To view the report, including the scope, methodology,     WHAT OIG RECOMMENDED
and full agency response, go to:                          We recommended ETA require Job Corps to provide
                                                          oversight that ensures PIPs, ROCAs, and other
http://www.oig.dol.gov/public/reports/oa/2012/26-12-      monitoring methods are used effectively to identify
006-03-370.pdf.                                           underperforming CTT and HSD/GED programs and
                                                          improve performance. This includes documenting and
                                                          reviewing all oversight activities conducted so that
                                                          internal and external stakeholders can make informed
                                                          decisions regarding the oversight’s effectiveness.

                                                          ETA did not completely agree with our conclusions, but
                                                          took corrective actions to address two
                                                          recommendations and will take action on the remaining
                                                          three.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       Job Corps Center Oversight 

                                      Report No. 26-12-006-03-370


                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 


Results In Brief .............................................................................................................. 2
 


Objective—To what extent has the Office of Job Corps ensured its centers managed 

          their academic and career technical training programs to meet performance 

          goals and maximize student achievements? ................................................ 4
 

          Job Corps' oversight weaknesses undermine center performance 

          Finding — Job Corps' Oversight of Centers Did Not Address Poor 

                    Peforming Programs and Maximize Student Achievements ............... 4
 


Recommendations ...................................................................................................... 11
 


Exhibit 
          Exhibit 1 Job Corps Programmatic and Policy Changes .................................... 15
 


Appendices 
          Appendix A Background ..................................................................................... 19
 

          Appendix B Objective, Scope, Methodology, and Criteria .................................. 23
 

          Appendix C Acronyms and Abbreviations .......................................................... 27
 

          Appendix D ETA's Response to Draft Report ..................................................... 29
 

          Appendix E Acknowledgements ......................................................................... 37
 





                                                                                               Job Corps Center Oversight 

                                                                                              Report No. 26-12-006-03-370


             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       Job Corps Center Oversight 

                                      Report No. 26-12-006-03-370


                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 28, 2012

                        Assistant Inspector General’s Report



Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

The Department of Labor (DOL), Employment and Training Administration (ETA),
oversees the Office of Job Corps (Job Corps), which administers and manages the Job
Corps program. Job Corps' mission is to attract eligible young people, teach them the
skills they need to become employable and independent, and place them in meaningful
jobs or further education. Job Corps administers the Job Corps program under the
leadership of the National Director, supported by the national office of Job Corps and a
field network of six regional offices.

Job Corps used a complex performance management system to assess program
effectiveness across multiple components of services and programs offered to Job
Corps students at 125 Job Corps centers nation-wide and provide feedback to its
centers on performance, while encouraging continuous program improvement.

Our audit objective was to answer the following question:

     To what extent has the Office of Job Corps ensured its centers managed their
     academic and career technical training programs to meet performance goals and
     maximize student achievements?

Our scope included Job Corps performance data for Program Years (PY) 2008 through
2010 (July 1, 2008, through June 30, 2011). We also analyzed corrective actions taken
by Job Corps headquarters and regional offices from PY 2008 to the present. We
conducted audit work at Job Corps headquarters in Washington, DC, and three Job
Corps centers: Homestead in Homestead, FL; North Texas in McKinney, TX; and
Hubert H. Humphrey in St. Paul, MN. See Appendix B for a detailed description of our
audit scope and methodology.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence

                                                                        Job Corps Center Oversight
                                             1                         Report No. 26-12-006-03-370
                                          U.S. Department of Labor – Office of Inspector General



obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

Job Corps initiated several major programmatic shifts and policy changes that resulted
in improved performance across all three of its Government Performance and Results
Act (GPRA) performance indicators during PYs 2008 through 2010. However, its
individual centers did not consistently meet Job Corps’ established Career Technical
Training (CTT) program completion and High School Diploma/General Educational
Development Certificate (HSD/GED) attainment goals during this period, and Job Corps
did not provide sufficient oversight at the center level to improve performance. Job
Corps did not effectively use Performance Improvement Plans (PIP), Regional Office
Center Assessments (ROCA), and other monitoring methods, such as on-site
monitoring and desk reviews, to ensure center programs met performance goals and
maximized student achievements. We estimate $37 million in funds can be put to better
use if improvements to Job Corps oversight resulted in the underperforming programs
meeting performance goals and up to $118 million if all the students enrolled in these
underperforming programs graduated.1

Job Corps did not issue PIPs to centers as required by the Workforce Investment Act of
1998 (WIA) and Job Corps policy for CTT programs not meeting performance goals.
Job Corps issued PIPs or closed programs for 64 (12.6 percent) of the 510
underperforming programs during PYs 2008 through 2010; and many of the programs
that did not close or receive PIPs continued to underperform in subsequent years.
Additionally, the CTT evaluation process Job Corps used to initiate PIPs did not
effectively identify underperforming CTT programs, and changes made to the evaluation
process for PY 2010 further reduced the visibility of poor performance. Job Corps did
not develop policies and procedures to issue PIPs for underperforming HSD/GED
programs because WIA did not require the PIPs. Issuing PIPs to centers with
underperforming HSD/GED programs may have enhanced the oversight provided by
Job Corps and helped eliminate problems hindering HSD/GED performance.

Job Corps also did not use ROCAs effectively to improve CTT program performance.
Job Corps policy required ROCAs at least once every 24 months and these ROCAs
were to cover all aspects of center operations. However, Job Corps did not place
sufficient emphasis on CTT programs during the ROCAs. For example, Job Corps
indicated that it identified and addressed program weaknesses for only 7 (1.4 percent)
of the 510 CTT programs that underperformed during PYs 2008 through 2010.
Additionally, Job Corps did not conduct ROCAs as frequently as required. We found
that during fiscal years (FY) 2007 through 2011 (October 1, 2006, through
September 30, 2011), 89 (74 percent) of the 120 required ROCAs were not completed
within 24 months, with 33 being completed more than a year after the due date.



1
    See Appendix B for details.

                                                                    Job Corps Center Oversight
                                           2                       Report No. 26-12-006-03-370
                                                          U.S. Department of Labor – Office of Inspector General



Job Corps used other monitoring methods, such as on-site monitoring and desk
reviews, during PYs 2008 through 2010 to conduct oversight of center operations, but
did not consistently formalize, document, and track how these methods addressed
underperforming CTT and HSD/GED programs. As a result, we could not determine
whether these other methods were effective in improving center CTT and HSD/GED
programs.

These conditions resulted from Job Corps’ lack of sufficient emphasis on ensuring it
used PIPs, ROCAs, and other monitoring methods for CTT and academic programs
effectively. Specifically, Job Corps’ national and regional offices did not have
mechanisms in place to ensure they conducted adequate oversight and that the
monitoring methods used resulted in improved performance. This undermined Job
Corps’ mission to teach eligible young people the skills they need to become
employable and independent, and place them in meaningful jobs or further their
education. During our audit, Job Corps initiated corrective action to address some of the
oversight weaknesses we identified.

We recommend ETA require Job Corps to provide oversight that ensures PIPs, ROCAs,
and other monitoring methods are used effectively to identify underperforming CTT and
HSD/GED programs and improve performance. This includes documenting and
reviewing all oversight activities conducted so that internal and external stakeholders
can make informed decisions regarding the oversight’s effectiveness.

ETA RESPONSE

ETA did not completely agree with our conclusions related to: weaknesses in its
oversight of centers; ineffective use of PIPs, ROCAs, and other oversight and
monitoring methods; and overall calculation of funds put to better use. However, ETA
took corrective actions to address two recommendations and will take action on the
remaining three.

OIG CONCLUSION

Based on ETA’s response, we revised our estimate of funds put to better use to exclude
Construction, Rehabilitation, and Acquisition (CRA) funding, but retained the operations
and administrative costs in our estimate because they support the delivery of services to
students and ultimately benefit each student. Excluding CRA reduced our estimate for
underperforming programs to meet performance goals of $39.4 million to $37 million
and our estimate for maximizing student achievements of $126.2 million to $118
million.2 ETA also disagreed with our use of cost per budgeted student slot in our funds
put to better use estimates and instead stated we should use cost per new enrollee.
Student training slots represent the program’s planned capacity and the maximum
number of students that can be enrolled in Job Corps at any given time during the
program year; thus we affirm our use of this cost. With the exception of the revision

2
    CRA funding represented only $105 million of Job Corps’ $1.7 billion budget authority.

                                                                                        Job Corps Center Oversight
                                                            3                          Report No. 26-12-006-03-370
                                                    U.S. Department of Labor – Office of Inspector General



related to CRA, ETA did not provide any new information that changed the conclusions
stated in the report.

RESULTS AND FINDINGS

Objective—To what extent has the Office of Job Corps ensured its centers
          managed their academic and career technical training programs to
          meet performance goals and maximize student achievements?

       Job Corps' oversight weaknesses undermine center performance.

Job Corps initiated several major programmatic shifts and policy changes that resulted
in improved performance across all three of its GPRA performance indicators during
PYs 2008 through 2010.3 Specifically, during PYs 2008 through 2010, students:
(1) entering employment or education increased from 66 percent to 73 percent; (2)
attaining a HSD/GED or CTT certificate increased from 55 percent to 64 percent; and
(3) achieving a literacy or numeracy gain increase from 58 percent to 65 percent.
However, its individual centers did not consistently meet Job Corps’ established CTT
program completion and HSD/GED attainment goals during this period and Job Corps
did not provide oversight required by WIA and Job Corps policy to improve
performance. We estimate that if Job Corps established effective processes to ensure it
provides adequate CTT oversight, it could put $37 million in funds put to better use if
each center met its CTT program completion performance goal; and up to $118 million if
centers maximized the performance for underperforming programs.4

Finding — Job Corps' Oversight of Centers Did Not Address Poor Peforming
          Programs and Maximize Student Achievements.

Job Corps Did Not Use PIPs Effectively to Improve Program Performance

We found that Job Corps did not comply with WIA and Job Corps’ Policy and
Requirements Handbook (PRH) requirements for issuing PIPs. In addition, we
determined that Job Corps’ CTT evaluation process for issuing PIPs reduced the
visibility of poor CTT program completion performance and the significance of students
dropping out of the programs. Furthermore, Job Corps did not use PIPs to address poor
performing HSD/GED programs even though 11 percent of these programs
underperformed across PYs 2008 through 2010.

Job Corps Did Not Comply with WIA and PRH Requirements for Issuing PIPs for CTT
Program Performance

WIA required that DOL develop and implement a PIP for each center that does not meet
the expected levels of performance. The PRH required regional offices to initiate an

3
  Job Corps’ three GPRA performance indicators are common measures used by similar programs. The performance 

indicators are established by the Federal Government’s Office of Management and Budget. 

4
  See Appendix B for details.



                                                                               Job Corps Center Oversight
                                                      4                       Report No. 26-12-006-03-370
                                                    U.S. Department of Labor – Office of Inspector General



appeals process for all CTT programs with unsatisfactory performance, which could
result in a center’s program being placed on a PIP. If mitigating circumstances existed
as documented in the appeals process, the CTT program would not serve probation or
require a PIP. The national office would initiate an appeals process for all CTT
programs under probation that had unsatisfactory performance for a second year, which
may result in the closure of the CTT program.5

According to Job Corps policy, the regional offices are responsible for identifying
underperforming CTT programs, initiating the PIP process, and documenting all actions
for all CTT programs that underperform. The Job Corps national office provides a
management report to each regional office prior to the close of each PY to assist the
regions in identifying those CTT programs that should be placed on a PIP.

Of the 510 CTT programs that required PIPs during PYs 2008 through 2010, Job Corps
records indicated that 49 PIPs (9.6 percent) were issued and 15 programs (2.9 percent)
were closed. Table 1 shows that Job Corps complied with WIA and its own policy a total
of 64 times (12.6 percent).

Table 1: Regional PIPs and Closures for Underperforming CTT Programs, PYs 2008 through 2010
                     Number of                                            WIA and Job
                     Underperforming     Documented        Documented     Corps Policy
 Regional Office     Programs            PIPs              Closures       Compliant
 Atlanta                    128                 11               2         13 (10.2 percent)
    Boston                        80                     0                 10           10 (12.5 percent)
    Chicago                       57                     0                 0              0 (0 percent)
    Dallas                        45                  31                   0            31 (68.9 percent)
    Philadelphia                  98                     5                 3             8 (8.2 percent)
    San Francisco                 102                    2                 0             2 (2.0 percent)
    Total All Regions
                                  510                 49                   15          64 (12.6 percent)*

* For the 64, the regional offices did not consistently follow Job Corps’ established procedures for issuing
PIPs or closing programs. However, if their actions resulted in a documented PIP or closure we
concluded compliance with WIA and Job Corps policy. The regional offices also informed us that they
issued 61 additional PIPs and closed 77 additional programs. These additions would have increased
compliance to 39.6 percent. However, they were not able to provide documentation to support these
actions; therefore we did not conclude compliance with WIA and Job Corps policy.

We found that many of the programs not receiving PIPs also underperformed in
subsequent years. For example, at least 30 CTT programs underperformed in PY 2008,
did not receive a PIP, and continued to underperform in PY 2009. Issuing PIPs to these
programs in PY 2008 may have addressed the deficiencies impeding performance and
resulted in the programs meeting their goals in PY 2009.



5
    See Appendix A for details.

                                                                                 Job Corps Center Oversight
                                                     5                          Report No. 26-12-006-03-370
                                                      U.S. Department of Labor – Office of Inspector General



As a result of our analysis showing the low number and inconsistency of PIPs issued by
the regional offices, the national office stated that many regional offices focused on
several major programmatic shifts and changes in Job Corps policies that impacted the
issuance of PIPs. These shifts and changes included: an increased level of training
needed to complete some CTT programs; initiation of Regional Career Pathway Plans
in 2009 that prioritized CTT programs based on industry-focused labor market data and
resulted in the closure of some programs; and a general nationwide streamlining of the
Job Corps program beginning in PY 2010 (see Exhibit 1). Job Corps also indicated that
guidance it provided to the regional offices during these events may have been
misinterpreted and contributed to the decline in PIPs. This was accurate as one regional
office told us that they believed PIPs were optional.

Job Corps’ Evaluation Process Did Not Effectively Identify Poor Performing CTT
Programs for PIPs

WIA required that DOL take corrective measures to improve the performance of the Job
Corps program. To comply with WIA, Job Corps rated individual CTT program
performance by aggregating the results across 10 components on the CTT Report Card
(CTT-10) to obtain an overall grade for the program. This grade covered both the center
and Career Transition Services (CTS) processes as a means of evaluating Job Corps
overall effectiveness in training students and placing them in higher-wage jobs.6
However, this evaluation process (grading components, component scoring calculation,
and overall report card grading scale) did not effectively identify poor performing CTT
programs for PIPs. To illustrate, only 1 component, CTT program completion, related to
services within a center’s direct control and represented only 15 percent of the CTT-10
grade;7 the remaining weighted components represented 85 percent of the grade and
related to indirect center services that CTS contractors provided (see table 2).

Table 2: PY 2010 CTT-10 Report Card Components
 CTT Component                                 Percent Weight in CTT-10 Report Card

    Program Completion (1 component)                                          15 percent
    Career Technical Training Industry-Recognized
    Credential Attainment Rate (1 component)                                  0 percent
    Placement Components (5 components)                                       55 percent

    Wage Components (3 components)                                            30 percent
                                                    Total                    100 percent

Job Corps’ aggregation of the CTT program completion component with the other nine
components reduced the visibility of performance issues relating specifically to CTT
program completions. For example, one program that completed 8 of its 21 students
(38.1 percent) did not require a PIP because those 8 students were placed in higher
6
 See Appendix A for details.


7
 The Career Technical Training Industry-Recognized Credential Attainment Rate is a direct center services measure. 

However, this measure was previously reported for informational purposes only and was not weighted in PY 2010. 

For PY 2011, the weight is 5%. 


                                                                                   Job Corps Center Oversight
                                                        6                         Report No. 26-12-006-03-370
                                                       U.S. Department of Labor – Office of Inspector General



education or a high wage job. The result is positive for the 8 students that completed;
however, the program deficiencies that resulted in 13 students (61.9 percent) dropping
out of the program were not addressed by a PIP. This is further illustrated by the fact
that 724 CTT programs did not meet the national goal of 70 percent student completion
in 2009, but only 189 PIPs were required.

Changes made to the evaluation process for PY 2010 further reduced the visibility of
poor performance. During the PY 2010 performance cycle, Job Corps implemented a
policy change to measure performance as a percentage of goals as opposed to actual
program performance. As part of this policy change, Job Corps removed the scoring
cap for each of the components on the CTT-10 report card such that any one
component could receive a calculated score higher than 100 percent. However, Job
Corps did not change the overall report card grading scale to reflect the changes it
made in the scoring calculation for each component. Given these changes, Job Corps’
ability to evaluate CTT programs and identify underperforming programs for required
PIPs was further reduced. For PY 2010, 6 CTT programs required PIPs; however, only
5 of the 549 CTT programs not meeting the 70 percent national goal for student
completions were included in these 6. According to Job Corps, the impact on the
requirement for PIPs was an unintended consequence of aligning the CTT-10 report
card with other Job Corps report cards used to evaluate operational performance.

Job Corps Did Not Use PIPs to Address Poor Performing HSD/GED Programs

WIA required that DOL take corrective measures to improve Job Corps performance.
Though WIA did not require PIPs for centers with underperforming HSD/GED programs,
it specifically provided DOL the latitude to develop and implement these PIPs as
needed.8 Job Corps told us that it did not issue PIPs for underperforming HSD/GED
programs because reliance was placed on other oversight activities, such as ROCAs
and monitoring visits. However, issuing PIPs to these centers may have enhanced the
oversight provided and helped eliminate problems hindering HSD/GED performance in
the subsequent years. For example, from PYs 2008 through 2010, 14 (11 percent)
centers did not meet HSD/GED attainment performance goals during each of the three
PYs.9 Job Corps identified and addressed these program deficiencies in ROCAs
conducted during that time period, but ROCAs are not conducted annually. Job Corps
students may have benefited and the HSD/GED programs improved if Job Corps issued
PIPs for these programs in the years prior or subsequent to the ROCAs.

Job Corps Did Not Use ROCAs Effectively to Improve CTT Program Performance

Job Corps’ ROCA is a comprehensive on-site evaluation of center compliance with Job
Corp operational requirements. Job Corps policy required regional offices to conduct
ROCAs for each Job Corps center at least once every 24 months. Information provided
by Job Corps showed that ROCAs addressed the poor performance for only
7 (1.4 percent) of the 510 CTT programs that underperformed during PYs 2008 through

8
    Section 159 subsection (f)(3).


9
    The goals for HSD/GED programs are model based and vary by year and center.



                                                                                     Job Corps Center Oversight
                                                         7                          Report No. 26-12-006-03-370
                                                          U.S. Department of Labor – Office of Inspector General



2010. In addition, during FYs 2007 through 2011, Job Corps conducted only 31 (26
percent) of the required ROCAs within the 24 month time frame specified by Job Corps
policy. Of the 89 centers that exceeded 24 months between ROCAs, 33 were more than
a year overdue (see table 3).

Table 3: Overdue ROCAs from FY 2007 – 2011
        Days Overdue         Total Number of Inspections
     1 to 89 days overdue                             15
    90 to 179 days overdue                            10
  180 to 364 days overdue                             31
  365 to 729 days overdue                             25
  730 to 1,094 days overdue                           7
 1,434 days overdue                                   1
                            Total                     89

According to Job Corps, it did not conduct all its ROCAs within the 24 month time frame
because of limited travel funds and a greater emphasis on conducting monitoring trips.10
In FY 2007, Job Corps conducted over 60 ROCAs. During FYs 2008 through 2011, Job
Corps conducted less than 50 ROCAs each year. We found that Job Corps did not
modify its 5 - 8 team member approach for conducting ROCAs during this period.
According to Job Corps, it planned to modify its approach for FY 2012 to use a risk
based analysis and 4 - 5 member teams. Job Corps will also conduct less monitoring
trips to ensure the funds are available for the required ROCAs. Job Corps estimated
that it will conduct over 60 ROCAs per year.

Job Corps Did Not Establish a Systemic Process to Conduct and Evaluate Other CTT
and HSD/GED Oversight and Monitoring Methods

DOL is responsible for complying with the “Standards for Internal Control in the Federal
Government” (Standards), which provide the overall framework for establishing and
maintaining internal control and for identifying areas at greatest risk of fraud, waste,
abuse, and mismanagement.11 One of the control activities specified in the Standards is
the requirement for agencies to document significant events.

Job Corps told us that it used a variety of other monitoring methods in its oversight of
CTT and HSD/GED programs, but generally did not track and document these oversight
activities. For example, Job Corps regional offices reported that they held meetings with
center directors, conducted follow-up monitoring trips, performed desk reviews, and, in
some cases, elected not to exercise center operators’ contract option years as a means
to alter performance and operations at centers. Though regional offices reported taking

10
   According to Job Corps, its travel funds were limited because the appropriations bills funding the program were not
signed into law by the end of the Congressional fiscal years. The continuing resolutions used to temporarily fund
existing federal programs did so at current or reduced levels.
11
   U.S. Government Accountability Office (GAO), Standards for Internal Control in the Federal Government
(GAO/AIMD-0021.3.1), November 1999.

                                                                                      Job Corps Center Oversight
                                                           8                         Report No. 26-12-006-03-370
                                                        U.S. Department of Labor – Office of Inspector General



other actions for 123 CTT programs, they were only able to provide documentation to
support 12 (9.8 percent) of these actions. Moreover, regional offices did not take any
action for 185 (36.3 percent) of the 510 underperforming CTT programs.12 Given that
Job Corps did not consistently document this other oversight, we were not able to
determine whether these other methods were effective in improving center CTT and
HSD/GED programs.

The results and findings in this report demonstrate weaknesses in Job Corps’ oversight
of its centers’ CTT and HSD/GED programs. Job Corps’ lack of sufficient emphasis on
ensuring PIPs, ROCAs, and other monitoring methods for CTT and academic programs
were used effectively caused the conditions we identified. Specifically, Job Corps’
national and regional offices did not have mechanisms in place to ensure they
conducted sufficient and required oversight, and that these methods resulted in
improved performance. These oversight weaknesses undermined Job Corps’ mission to
teach eligible young people the skills they need to become employable and
independent, and place them in meaningful jobs or further education. We found that the
cost of students dropping out of CTT programs was significant. We estimate $37 million
in funds put to better use if improvements to Job Corps oversight resulted in the
underperforming programs meeting performance goals; and up to $118 million if all the
enrolled students in these underperforming programs graduated.13

During our audit, Job Corps initiated or planned corrective action to address some of the
oversight weaknesses we identified. Specifically, Job Corps:

     		 revised the PRH in July 2012 to clearly state the requirement for the regional
         offices to identify underperforming CTT programs, initiate the PIP process, and
         document all follow up actions for all CTT programs that initially underperform to
         perform at a satisfactorily level, as well as those that demonstrate a consecutive
         pattern of low performance;

     		 revised the scale in the PY 2012 Performance Measurement System, as reported
         in the PRH, to reflect the changes in the grading calculation; and

     		 stated that during PY 2012, it will establish a performance system, including
         performance evaluations, for HSD/GED programs that do not meet established
         system-wide goals similar to that used for CTT.

ETA Response to Draft Report

In response to our draft report, ETA stated that it took corrective actions to address two
recommendations and will take action on the remaining three. However, ETA did not
agree with our audit conclusions related to weaknesses in its oversight of centers;
ineffective use of PIPs, ROCAs, and other oversight and monitoring methods; and

12
   These figures include the number of underperforming programs that Job Corps reported it did not take action for as 

a result of changes to the Training and Achievement Records (TAR). See Exhibit 1. 

13
   See Appendix B for details.



                                                                                     Job Corps Center Oversight
                                                          9                         Report No. 26-12-006-03-370
                                          U.S. Department of Labor – Office of Inspector General



overall calculation of funds put to better use. Our findings and conclusions were based
on the evidence provided by ETA throughout the audit. ETA was not able to provide
documentation that showed oversight actions they reported actually occurred for the
exceptions identified.

ETA incorrectly stated that the performance targets related to this audit pertained to
literacy and numeracy proficiency. Our work did not cover these areas. ETA also
indicated that we concluded PIPs for HSD/GED programs were required by WIA, but
this is incorrect. The report stated that WIA did not require PIPs for HSD/GED
programs.

ETA disagreed that its oversight of centers did not address poor performing programs
and maximize student achievements. ETA stated it held programs accountable through
ROCAs and monitoring processes. In addition, ETA stated it closed, downsized, or
refocused many low-performing CTT programs and used PIPs, ROCAs, and other
monitoring methods, including on-site monitoring and desk reviews, to ensure center
programs met performance goals and maximized student achievements. As indicated in
our report, ETA was not able to provide documentation to support this occurred for the
exceptions identified. We were conservative in our approach regarding the supporting
documentation provided for poor performing CTT programs even though regional offices
did not consistently follow Job Corps’ established procedures for issuing PIPs or closing
programs. If regional office action resulted in a PIP or closure, we concluded
compliance with WIA and the PRH.

ETA stated that our findings do not reflect the significant transition the program
underwent during PYs 2008 through 2010 or provide the context and a description of
the operating environment during this time period. We acknowledge in the body of the
report and Exhibit 1 that the Job Corps program underwent several major programmatic
shifts and changes; however, these events did not relieve ETA of its responsibility to
comply with WIA and the PRH. ETA disputed that these shifts and changes resulted in a
decreased emphasis on the issuance of PIPs. Information we received from ETA
indicated there was a decreased emphasis; however, we revised the report to state that
these shift and changes impacted the issuance of PIPs.

ETA disagreed that the WIA requirement for DOL to take corrective action to improve
Job Corps’ performance applied to Job Corps’ performance rating system and that our
interpretation of the report cards was incorrect. WIA required that DOL develop and
implement a PIP for each center that does not meet the expected levels of performance.
According to the PRH, the CTT-10 supports WIA requirements and the overall rating a
CTT program received on its CTT-10 drives the PIP process. Thus, the link between the
CTT-10 grade and the PIP process was made in the PRH and not by the OIG.

ETA also incorrectly stated that we had concluded that the main driver for student drop
outs was a lack of PIPs or other oversight methods. We did not test or conclude on the
causes for student drop outs; rather, we state that issuing PIPs to these
underperforming programs may have addressed deficiencies impeding performance.

                                                                    Job Corps Center Oversight
                                           10                      Report No. 26-12-006-03-370
                                                          U.S. Department of Labor – Office of Inspector General




The report includes a revised estimate of funds put to better use. We retained the
operations and administrative costs in our estimate because the costs incurred support
the delivery of services to students and ultimately benefit each student. Excluding CRA
reduced our estimate for underperforming programs to meet performance goals of
$39.4 million to $37 million and our estimate for maximizing student achievements of
$126.2 million to $118 million.14

With the exception of the revision related to funds put to better use, ETA did not provide
any new information that changed the conclusions stated in the report.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require Job
Corps to:

       (1) develop processes and controls to ensure Job Corps issues PIPs to centers for
           each underperforming CTT program as required by WIA and Job Corps policy;

       (2) revise the grading system used to initiate PIPs to ensure it effectively identifies
           underperforming CTT programs;

       (3) develop processes and controls to ensure that underperforming HSD/GED
           programs receive appropriate oversight, including PIPs;

       (4) develop processes and controls to ensure Job Corps conducts ROCAs as
           required by Job Corps policy and that CTT and HSD/GED performance issues
           are identified and addressed;

       (5) develop processes and controls to ensure Job Corps documents and reviews for
           effectiveness all oversight activities conducted so that internal and external
           stakeholders can make informed decisions regarding the oversight's
           effectiveness.

We appreciate the cooperation and courtesies that Job Corps personnel extended to
the Office of Inspector General during this audit. Appendix E lists the OIG personnel
who made major contributions to this report.



Elliot P. Lewis
Assistant Inspector General
 for Audit



14
     CRA funding represented only $105 million of Job Corps $1.7 billion budget authority.

                                                                                       Job Corps Center Oversight
                                                           11                         Report No. 26-12-006-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       Job Corps Center Oversight
              12                      Report No. 26-12-006-03-370
            U.S. Department of Labor – Office of Inspector General




Exhibit 





                                      Job Corps Center Oversight
             13                      Report No. 26-12-006-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       Job Corps Center Oversight
              14                      Report No. 26-12-006-03-370
                                                   U.S. Department of Labor – Office of Inspector General



                                                                                             Exhibit 1
Job Corps Programmatic and Policy Changes

According to national office of Job Corps, several major programmatic shifts and
changes in Job Corps policies impacted the issuance of PIPs. Specifically, many
regional offices focused on the increased level of training needed to complete some
CTT programs; initiation of Regional Career Pathway Plans in 2009 that prioritized CTT
programs based on industry-focused labor market data and resulted in the closure of
some programs; and a general nationwide streamlining of the Job Corps program
beginning in PY 2010. In addition, some regional offices changed center operators as a
means to alter performance and operations at centers.

Training and Achievement Record (TAR) Changes

In PY 2007, Job Corps began the National Certification Initiative to align Job Corps’
training programs with industry-based skill standards, as required by a Presidential
Initiative; the required completion date was July 1, 2008.15 According to Job Corps, this
initiative increased the difficulty of TARs and impacted the performance for over 70 CTT
programs. Job Corps reported to us that it closed 40 underperforming CTT programs in
PY 2008 rather than place these programs on PIPs. In addition, Job Corps reported that
combining the CTT programs that used the old TAR with the programs that used the
new TAR resulted in an artificial reflection of performance during PYs 2008 through
2009.

Regional Career Pathways

In PY 2009, Job Corps initiated the Regional Career Pathways Plan for CTT
programs.16 Job Corps directed regional offices to develop a 3-year plan outlining their
training priorities based on industry-focused labor market data. Over a period of 3 years,
Job Corps requested that the regional offices choose two industry areas (per year) that
would receive the majority of allocated annual funds and program focus. According to
Job Corps, part of this process included closing CTT programs that would impede the
prioritization of CTT programs. For example, Job Corps informed us that it closed 44
underperforming programs in PY 2009 and 45 programs that were not underperforming
in PY 2010 as part of the Regional Career Pathways Plan.

Nationwide Data Streamlining

Since PY 2010, Job Corps required regional offices to reconcile program offerings,
codes, TAR usage, and per-program slot records with those contained in the National
Office Master Profile. Job Corps required regional offices to determine the CTT slots
that they should reduce or eliminate based on performance or low student enrollment,
and request reduction or closure from the Job Corps national office. The national office
carried the costs associated with these actions. According to Job Corps, during PY
15
     Job Corps Information Notice No. 07-19 (January 31, 2008).
16
     Job Corps Program Instruction No. 09-21 (October 15, 2009).

                                                                             Job Corps Center Oversight
                                                    15                      Report No. 26-12-006-03-370
                                          U.S. Department of Labor – Office of Inspector General



2010 and 2011, the national office experienced a major budget crisis that resulted in a
suspension of all CTT changes; specifically, the Job Corps national office did not accept
regional office requests or proposed requests for CTT program changes. As a result,
Job Corps did not close low-performing CTT programs and may not have placed these
programs on PIPs.




                                                                    Job Corps Center Oversight
                                           16                      Report No. 26-12-006-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                         Job Corps Center Oversight
                17                      Report No. 26-12-006-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                       Job Corps Center Oversight
              18                      Report No. 26-12-006-03-370
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix A
Background

General

ETA oversees Job Corps, which administers and manages the Job Corps program. Job
Corps' mission is to attract eligible young people, teach them the skills they need to
become employable and independent, and place them in meaningful jobs or further
education. Job Corps administers the Job Corps program under the leadership of the
National Director, supported by the national office of Job Corps and a field network of
six regional offices. The Job Corps program provides education, training, and support
services to students at 125 Job Corps center campuses located throughout the United
States and Puerto Rico. Private contractors and other Federal Agencies operate centers
for DOL through competitive contracting processes and interagency agreements,
respectively.

Job Corps used a complex performance management system to assess program
effectiveness across multiple components of services and programs offered to Job
Corps students. The performance management system is intended to assist Job Corps:

   1. Meet accountability requirements for establishing performance measures and
      reporting student outcomes for the Job Corps system per WIA, Common
      Performance Measures for federal youth programs, and DOL priorities;

   2. Assess centers’ and agencies’ accomplishments in implementing program 

      priorities and serving students effectively; and 


   3. Provide feedback on performance, while encouraging continuous program 

      improvement. 


Performance Assessments and Improvements Required by WIA

Section 159 subsection (f)(1) of WIA required the Secretary of Labor to conduct an
annual assessment of the performance of each center and take corrective measures to
improve the performance of the Job Corps program.

Core Performance Measures

WIA required the Secretary of Labor to develop and implement a PIP for each center
that did not meet the expected levels of performance relating to the following core
performance measures:

      Number of graduates and graduation rate analyzed by the type of vocational
       training;
      Number of graduates who entered unsubsidized employment both related and
       unrelated to the vocational training received through the Job Corps program;

                                                                   Job Corps Center Oversight
                                          19                      Report No. 26-12-006-03-370
                                           U.S. Department of Labor – Office of Inspector General



      Average wage of graduates who entered unsubsidized employment both related
       and unrelated to the vocational training received through the Job Corps program;
      Average wage received by graduates placed in unsubsidized employment after
       completion of the Job Corps program;
      Number of graduates who entered unsubsidized employment and were retained
       in the unsubsidized employment;
      Number of graduates who entered unsubsidized employment;
      Number of graduates who entered postsecondary education or advanced training
       programs, including apprenticeship programs; and
      Number of graduates who attained job readiness and employment skills.

Performance Improvement Plans

WIA established that PIPs require action, including:

      providing technical assistance to the center;
      changing the vocational training offered at the center;
      changing the management staff of the center;
      replacing the operator of the center;
      reducing the capacity of the center;
      relocating the center; or
      closing the center.

WIA does not require PIPs for centers that did not meet their performance goals for the
HSD or GED certificate programs; however, WIA provides the Secretary of Labor
discretion to develop and implement additional PIPs for a center that did not meet
criteria established by the Secretary of Labor other than the expected levels of
performance relating to the core performance measures noted above. WIA stipulates
that these additional PIPs require improvements, including those seven actions
described above.

Job Corps’ Center and Career Technical Training Report Cards

The Center Report Card (OMS-10) is the component of the Job Corps’ performance
management system used to assess overall center performance. The OMS-10
measures and accounts for performance across all centers and collects and evaluates
data regarding students’ academic and CTT attainments, placements, and continued
placement at 6 and 12 months following the initial placement. The CTT-10 is the
component of Job Corps’ performance management system used to measure the
performance of individual Job Corps CTT programs, such as culinary arts and
carpentry, at each center. The CTT-10 provides data regarding students’ CTT program
participation/completion, as well as achievement of long-term employment at
sustainable earnings. According to the PRH, the primary purpose of the CTT-10 is to
maximize the performance of programs. Specifically, it was designed to assist Job
Corps officials, at all levels, to:


                                                                     Job Corps Center Oversight
                                            20                      Report No. 26-12-006-03-370
                                           U.S. Department of Labor – Office of Inspector General



      Better monitor and evaluate CTT program performance;
      Recognize programs that consistently perform well;
      Actively assist, at the earliest indication, programs that demonstrate
       unsatisfactory performance; and
      Work to improve programs that exhibit average performance to prevent further
       decline.

Job Corps’ used 10 Career Technical Training Measures on the CTT-10, each of which
is weighted. Job Corps rated individual CTT program performance by aggregating the
results across each of the weighted measures to obtain an overall rating for each
program. The CTT Program Completion Rate represents 15 percent of this rating. Job
Corps also calculates an overall CTT-10 rating for a center by aggregating the results
across each of the weighted measures. Job Corps reviews both overall ratings to
assess program effectiveness and these ratings play a key role in the procurement
process. Job Corps also used these overall ratings to determine the performance
ranges for performance-based service contracting.

Each center’s CTT program receives an overall rating based on the 10 measures and
are graded based on the following scale. During the PY 2010 performance cycle, Job
Corps added performance goals to all of the measures in the CTT-10 so that it would
align with the other program report card algorithms. Job Corps also removed the
maximum performance rating cap of 100 percent. Job Corps implemented the policy
change of adding goals to the CTT-10 in PY 2010, but without changing the evaluation
scale used in prior PYs:

      A – Exceptional performance (90 percent and higher)
      B – Above average performance (80 – 89 percent)
      C – Average performance (70 – 79 percent)
      D – Unsatisfactory performance/Underperforming (0 – 69 percent)

Job Corps’ PIP Process for CTT

The overall rating a CTT program received on its CTT-10 drives the PIP process, but
the PRH provides a significant amount of latitude to regional offices. Regional offices
may, but are not required to, place CTT programs with average performance (including
National Training Contractors) on a PIP. Furthermore, a regional office may not
automatically require those CTT programs with unsatisfactory performance to have a
PIP. The PRH required regional offices to initiate an appeals process for all CTT
programs with unsatisfactory performance, which will result in a center’s program being:

      Placed on probation with a PIP;
      Not being placed on probation but requiring a PIP, or
      Neither serving probation nor requiring a PIP.

Job Corps reserved the last option for exceptional mitigating circumstances, such as
abrupt departure of an instructor, etc. The PRH required regional offices to submit to the

                                                                     Job Corps Center Oversight
                                            21                      Report No. 26-12-006-03-370
                                           U.S. Department of Labor – Office of Inspector General



national office, Division of Educational Services, a composite list of those programs
designated to serve probation and a copy of the PIP for each targeted center. If a center
receives a Grade D for a second year after serving probation, the national office of Job
Corps will administer an appeals process that may result in the closure of the CTT
program.

To assist the regional office in their monitoring efforts, according to the national office
CTT Unit Chief, the national office provides a management report to each regional office
prior to the close of each PY that identifies those CTT programs it believes regional
offices should place on a PIP, but the responsibility for issuing and monitoring PIPs lies
with the regional offices.

Job Corps’ ROCA Process

Job Corps policy required regional offices to conduct ROCAs for each Job Corps center
at least every 24 months. Job Corps’ ROCA is a week-long compliance assessment
designed to cover all aspects of center operations. Regional offices evaluate center
compliance with Job Corps’ policies and requirements using Job Corps’ Program
Assessment Guide, which provides evaluators with a review outline and minimum
standards to assess. Job Corps regional office prepare a final ROCA report that serves
as both a “formal score” of program performance and a reference for centers to take
corrective action in identified areas where scores did not meet expectations.

The contractor/center operator is required to respond to the ROCA findings within
30 days and address each identified area of non-compliance or poor performance. Job
Corps uses the ROCA report and contractor responses to identify and prioritize
concerns in each specific area, provide technical assistance and recommendations for
corrective action, and conduct regular follow-up via monitoring trips and desktop
monitoring of center performance.




                                                                     Job Corps Center Oversight
                                            22                      Report No. 26-12-006-03-370
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

     To what extent has the Office of Job Corps ensured its centers managed
     their academic and career technical training programs to meet performance
     goals and maximize student achievements?

Scope

Our scope included Job Corps performance data for PYs 2008 through 2010
(July 1, 2008, through June 30, 2011). We also reviewed performance data for the
3-year period and analyzed corrective actions taken by Job Corps headquarters and
regional offices from PY 2008 to the present.

We conducted audit work at Job Corps headquarters in Washington, DC, and three Job
Corps centers: Homestead in Homestead, FL; North Texas in McKinney, TX; and
Hubert H. Humphrey in St. Paul, MN.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our audit objective, we obtained an understanding of applicable laws,
regulations, and Job Corps policies and procedures. At the Job Corps national office,
we performed walkthroughs of national office processes, interviewed officials, and
reviewed regional office center assessments. We considered the internal control
elements of control environment, risk assessment, control activities, information and
communication, and monitoring during our planning and substantive audit phases and
evaluated relevant controls. Our consideration of these controls would not necessarily
disclose all matters that might be reportable conditions. In addition, inherent limitations
of internal controls, misstatements, losses, or noncompliance may nevertheless occur
and not be detected.

We judgmentally selected 3 centers for site visits based on a review of the CTT-10
report, OMS-10 report, and PIP information initially reported by the 6 Job Corps regional
offices from PYs 2008 through 2010. Specifically, we judgmentally selected centers
based on the following:

                                                                      Job Corps Center Oversight
                                             23                      Report No. 26-12-006-03-370
                                          U.S. Department of Labor – Office of Inspector General




   		 CTT Program Completion: Analyze the CTT-10 reports for PYs 2008 through
       2010 to determine programs with CTT program completion rates below the
       national goal of 70 percent. Analyze the CTT-10 reports for PYs 2008 through
       2010 to determine centers showing improvements or deterioration in CTT
       program completion rates across PYs.
   		 HSD/GED Attainment: Analyze the OMS-10 reports for PYs 2008 through 2010
       to determine centers with HSD/GED attainment rates below their assigned goals.
       Analyze the OMS-10 reports for PYs 2008 through 2010 to determine centers
       showing improvements or deterioration in HSD/GED attainment rates across
       PYs.
   		 Regional offices reporting a PIP: Review the PIP information initially provided by
       the 6 Job Corps regional offices.

We also considered any known Job Corps program weaknesses and centers that were
subjects of Hotline complaints in 2011 and 2012 in our selection process.

The centers we judgmentally selected were:

       Homestead (Atlanta regional office), in Homestead, FL; 

       North Texas (Dallas regional office), in McKinney, TX; and 

       Hubert H. Humphrey (Chicago regional office) in St. Paul, MN. 


At the 3 Job Corps centers we visited, we performed walkthroughs of center data entry
and recordkeeping processes, and identified and evaluated internal controls over
student achievement oversight and reporting, as applicable. Our consideration of
internal controls would not necessarily disclose all matters that might be significant
deficiencies. Because of inherent limitations in internal controls, misstatements or
noncompliance may nevertheless occur and not be detected.

Data Reliability Testing

To assess the reliability of the CTT-10 and OMS-10 data provided by Job Corps, we
performed testing to detect missing values, invalid identifiers, and obvious errors.

To assess the reliability of the CTT and HSD/GED completers provided by the 3 Job
Corps centers we visited, we: (1) performed testing to detect missing values, invalid
identifiers, and obvious errors; (2) compared the number of completing students against
the Job Corps’ CTT-10, OMS-10, and Monthly Center Summary Reports; (3) followed
up on trends, unusual changes, and outliers found; (4) reviewed existing information
and documentation about the process centers used to enter data into the Center
Information System (CIS); (5) interviewed center officials about controls and guidance to
staff for data entry and recordkeeping of student achievements; and (6) statistically
selected student records from PYs 2008 through 2010 for compliance with PRH
recordkeeping requirements.


                                                                    Job Corps Center Oversight
                                           24                      Report No. 26-12-006-03-370
                                                   U.S. Department of Labor – Office of Inspector General



When we found discrepancies, such as non-populated fields or missing records, we
brought them to the attention of the Job Corps national office and center officials, as
appropriate. We determined that the data were sufficiently reliable for the purposes of
our report.

Funds Put to Better Use

 To determine funds put to better use, we calculated:

     		 Annual Cost of a Budgeted Student Slot by using the FY 2010 Job Corps total
         budget authority for operations and administration17 divided by the budgeted
         student slots and multiplied by the capacity utilization rate.18
            o		 Student training slots represent the program’s planned capacity and the
                maximum number of students that can be enrolled in Job Corps at any
                given time during the program year. Throughout the year, multiple
                students can occupy one slot. However, only one student can occupy a
                slot at a time. This provides an assessment of cost relative to Job Corps
                ability to operate at full capacity.
     		 Daily Cost Per Budgeted Student Slot by dividing the Annual Cost of a Budgeted
         Student Slot by 365 calendar days.
     		 Average Length Per Stay Cost by multiplying the Daily Cost Per Budgeted
         Student Slot by 5.6 months (Job Corps determined average length per stay for
         former enrollees).

We found that Job Corps center operators did not always meet Job Corps' CTT student
completion goal of 70 percent. Using Job Corps' PY 2010 data that identified the
number of students who successfully completed a CTT program in comparison to
number of students who enrolled in a CTT program, we determined that 2,163 student
completions were needed for all programs to meet Job Corps' CTT student attainment
goal of 70 percent. We then estimated the $37 million in funds put to better use by
multiplying the 2,163 students by $17,101, the average length per stay cost for former
enrollees.

Similarly, we calculated the funds put to better use if all the students in these
underperforming programs completed and student achievement was maximized. Using
Job Corps' PY 2010 data that identified the number of students who successfully
completed an underperforming CTT program in comparison to the number of students
enrolled, we calculated 6,925 students enrolled in these programs did not complete the
programs. We then estimated the $118 million in funds put to better use by multiplying
the 6,925 students by $17,101, the average length per stay cost for former enrollees.



17
   Total budget authority included operations, construction, and administration from the Congressional
Budget Justifications. For our estimate we included only operations and administration funding.
18
   The capacity utilization rate is from a 5-year average of actual on-board strength (OBS) divided by the
5-year average of budgeted OBS.

                                                                              Job Corps Center Oversight
                                                    25                       Report No. 26-12-006-03-370
                                          U.S. Department of Labor – Office of Inspector General



Criteria

      Economic Opportunity Act of 1964
      Workforce Investment Act of 1998
      Government Accountability Office, Standards for Internal Control in the Federal
       Government (November 1999; GAO/AIMD-00-21-3.1) 

      Office of Job Corps Policy and Requirements Handbook


      Office of Job Corps Program Assessment Guide






                                                                    Job Corps Center Oversight
                                           26                      Report No. 26-12-006-03-370
                                      U.S. Department of Labor – Office of Inspector General



                                                                             Appendix C
Acronyms and Abbreviations

CIS             Center Information System

CRA             Construction, Rehabilitation, and Acquisition funding

CTS             Career Transition Services

CTT             Career Technical Training

CTT-10          Career Technical Training Report Card

DOL             U.S. Department of Labor

ETA             Employment and Training Administration

FY              Fiscal Year

GAO             U.S. Government Accountability Office

GPRA            Government Performance and Results Act

HSD/GED         High School Diploma/General Educational Development Certificate

Job Corps       Office of Job Corps

OBS             On Board Strength

OIG             Office of Inspector General

OMS-10          Center Report Card

PIP             Performance Improvement Plan

PRH             Policy and Requirements Handbook

PY              Program Year

ROCA            Regional Office Center Assessment

Standards       GAO, Standards for Internal Control in the Federal Government

TAR             Training and Achievement Record

WIA             Workforce Investment Act of 1998

                                                                Job Corps Center Oversight
                                       27                      Report No. 26-12-006-03-370
U.S. Department of Labor – Office of Inspector General




                          Job Corps Center Oversight
 28                      Report No. 26-12-006-03-370
                                 U.S. Deparrtment of Lab
                                                       bor – Office off Inspector Ge
                                                                                   eneral



                                                                         Append
                                                                              dix D
ETA's Response to Draft Re
                         eport




                                                            Job Corpss Center Ove
                                                                                ersight
                                  29                       Report No. 26-12-006-03-370
U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 30                       Report No. 26-12-006-03-370


U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 31                       Report No. 26-12-006-03-370


U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 32                       Report No. 26-12-006-03-370


U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 33                       Report No. 26-12-006-03-370


U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 34                       Report No. 26-12-006-03-370


U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




                           Job Corpss Center Ove
                                               e
rsight 

 35                       Report No. 26-12-006-03-370


             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                       Job Corps Center Oversight
              36                      Report No. 26-12-006-03-370
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Heather T. Atkins
(Audit Manager), Arijit Bandyopadhyay and Michael Towne (Auditors), and Stephen
Lawrence (Senior Auditor).




                                                                   Job Corps Center Oversight
                                          37                      Report No. 26-12-006-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
